U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 16, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Lamont Dejuan Higgs v. Warden Wilson,
S.CtNo. 19-401

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
18, 2019, and placed on the docket on September 25, 2019. The government's response is due
on October 25, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 25, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-040 1
HIGGS, LAMONT DEJUAN
WARDEN WILSON

LOCHLAN F. SHELFER
GILB SON, DUNN & CRUTCHER LLP
1050 CONNECTICUT AVENUE, NW
WASHINGTON, DC 20036
202-955-8500
LSHELFER@GIBSONDUNN.COM

